<html>
<title> - [H.A.S.C. No. 115-117]THE IMPACT OF NATIONAL DEFENSE ON THE ECONOMY, DIPLOMACY, AND INTERNATIONAL ORDER</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-117]

                     THE IMPACT OF NATIONAL DEFENSE

                     ON THE ECONOMY, DIPLOMACY, AND

                          INTERNATIONAL ORDER
                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                              HEARING HELD

                           SEPTEMBER 26, 2018
                           
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                           
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
33-473 PDF                 WASHINGTON : 2019 

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
VICKY HARTZLER, Missouri             MARC A. VEASEY, Texas
AUSTIN SCOTT, Georgia                TULSI GABBARD, Hawaii
MO BROOKS, Alabama                   BETO O'ROURKE, Texas
PAUL COOK, California                DONALD NORCROSS, New Jersey
BRADLEY BYRNE, Alabama               RUBEN GALLEGO, Arizona
SAM GRAVES, Missouri                 SETH MOULTON, Massachusetts
ELISE M. STEFANIK, New York          COLLEEN HANABUSA, Hawaii
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
STEVE RUSSELL, Oklahoma              A. DONALD McEACHIN, Virginia
SCOTT DesJARLAIS, Tennessee          SALUD O. CARBAJAL, California
RALPH LEE ABRAHAM, Louisiana         ANTHONY G. BROWN, Maryland
TRENT KELLY, Mississippi             STEPHANIE N. MURPHY, Florida
MIKE GALLAGHER, Wisconsin            RO KHANNA, California
MATT GAETZ, Florida                  TOM O'HALLERAN, Arizona
DON BACON, Nebraska                  THOMAS R. SUOZZI, New York
JIM BANKS, Indiana                   JIMMY PANETTA, California
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia
PAUL MITCHELL, Michigan
(Vacancy)
(Vacancy)

                      Jen Stewart, Staff Director
                  Kim Lehn, Professional Staff Member
                      William S. Johnson, Counsel
                          Justin Lynch, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Brands, Dr. Hal, Henry A. Kissinger Distinguished Professor, 
  Johns Hopkins School of Advanced International Studies, Senior 
  Fellow, Center for Strategy and Budgetary Assessments..........     5
Inboden, Dr. William, Executive Director and William Powers Jr. 
  Chair, Clements Center for National Security, and Associate 
  Professor, LBJ School, University of Texas-Austin..............     3

                                APPENDIX

Prepared Statements:

    Brands, Dr. Hal..............................................    51
    Inboden, Dr. William.........................................    38
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    36
    Thornberry, Hon. William M. ``Mac''..........................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Rosen....................................................    69


 
           
     THE IMPACT OF NATIONAL DEFENSE ON THE ECONOMY, DIPLOMACY, AND 
                          INTERNATIONAL ORDER

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 26, 2018.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2141, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. These 
microphones are more sensitive than ours.
    Throughout the year, the committee has examined a number of 
aspects of American national security. Today, we step back and 
consider part of the why. Why should the U.S. insist on having 
the strongest military in the world? What is the connection 
between a strong military and other instruments of national 
power and influence? How does a strong military benefit the 
daily lives of average Americans?
    As we rightfully work through the details of military 
threats and capabilities, those are the kinds of questions that 
we do not often ask, much less answer.
    Posing them does not diminish the central purpose of the 
military to protect the physical safety of Americans and defend 
our freedom against those who threaten it. But there are other 
benefits that flow from military strength to the American 
people and the quality of our lives.
    Today on the floor, we have the opportunity to do something 
we have not done in nearly a decade, which is to adequately 
fund the military on time. But one year's budget does not 
repair the readiness problems that have developed over the 
years, and it does not adequately respond to adversaries 
threatening our superiority in several areas.
    We need a sustained policy, one we stick with even as 
political currents wax and wane. Such a policy requires looking 
at these deeper questions of why military strength is 
important.
    For more than 70 years, the dominant view in both political 
parties has supported American military superiority. Many of 
the underlying reasons, which were learned at a high cost, have 
come to be taken for granted and are even being challenged at 
both ends of the political spectrum. Perhaps we need to be 
reminded of what is at stake.
    I welcome our distinguished witnesses, both of whom can 
provide valuable perspectives on these issues. I also want to 
thank Chairman Goodlatte and the Judiciary Committee for 
loaning us the use of this room while ours is being worked on. 
Unfortunately, the loan expires at noon, so we will try to get 
to as many members and questions as we have time before then.
    Let me yield to the distinguished acting ranking member, 
the gentlelady from California, Ms. Davis.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 35.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you very much, Mr. Chairman. I want to 
thank you for bringing this important topic forward today. I 
also want to welcome our witnesses, Dr. Inboden and Dr. Brands, 
and thank them for appearing today. And request unanimous 
consent to submit the ranking member's statement for the 
record.
    The Chairman. No objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 36.]
    Mrs. Davis. You know, Mr. Chairman, we continue to need a 
whole-of-government approach to adequately support national 
defense. Although defense budgets have increased and the 
National Defense Strategy talks about prioritizing alliances 
and partnerships, the administration has not committed adequate 
resources to support diplomacy and development efforts abroad. 
The budget also failed to support domestic priorities that 
bolster defense long term.
    Defense innovation can spur growth and major acquisition 
programs can create jobs. But so, too, do essential and much-
needed investments in education and infrastructure, research 
and innovation, energy solutions, health care, the workforce, 
and many others. Congress needs to sufficiently support the 
full spectrum of defense and nondefense priorities.
    Defense spending should be based on a realistic strategy 
and supported by rational budgetary choices. We need to take a 
close look at our investments and to take actions that will 
yield savings and raise revenues. We must invest wisely when it 
comes to national security. And we must be realistic in 
matching strategic objectives with our finite national 
resources.
    Thank you, Mr. Chairman. I look forward to receiving our 
witnesses' testimony.
    The Chairman. Thank you. Our witnesses today are Dr. 
William Inboden, Executive Director and William Powers, Jr., 
Chair at the Clements Center for National Security in the 
Lyndon B. Johnson School, Associate Professor at the University 
of Texas at Austin; and Dr. Hal Brands, Henry A. Kissinger 
Distinguished Professor at School of Advanced International 
Studies, Johns Hopkins University, and Senior Fellow, Center 
for Strategic and Budgetary Assessments.
    Without objection, both of your full written statement will 
be made part of the record. Thank you, again, for being here. 
Dr. Inboden, the floor is yours.

   STATEMENT OF DR. WILLIAM INBODEN, EXECUTIVE DIRECTOR AND 
   WILLIAM POWERS, JR., CHAIR, CLEMENTS CENTER FOR NATIONAL 
 SECURITY, AND ASSOCIATE PROFESSOR, LBJ SCHOOL, UNIVERSITY OF 
                          TEXAS-AUSTIN

    Dr. Inboden. Well, thank you very much, Mr. Chairman and 
Congresswoman Davis and other distinguished members of the 
committee. It is an honor to be here with you today.
    I want to focus my spoken remarks around three main points, 
all of which I develop in more detail in my written testimony. 
These three points are, first, the threats to the international 
order posed by revisionist great powers Russia and China; 
second, the role that the United States played in creating this 
order and continues to play in sustaining it; and, third, the 
ways in which a strong military enhances our diplomatic and 
economic policies.
    So first, in our present moment, this international order 
is beginning to erode under growing stress and strain, as 
revisionist powers such as Russia and China seek to undermine 
or even overturn the American-led order, while increasing 
numbers of voices in the United States and in Europe take for 
granted the benefits of the order, while questioning the cost 
value and viability of maintaining it.
    As Robert Kagan observes in his new book, world order is 
one of those things people do not think about until it is gone. 
The good news is this world order is not gone yet, but it is 
decaying inside and imperiled outside.
    However, we should not lump Russia and China together, for 
the nature of their threats is different. Russia is largely a 
declining power with a host of internal demographic, political, 
and economic pathologies, and very few allies or friends.
    Vladimir Putin does not have a positive vision for 
constructing a new international order. He only seeks to play 
the role of the arsonist with the current order, while 
reasserting Russia's seat at the high table of international 
politics and trying to edge the United States aside. Thus his 
efforts to undermine European unity, sow chaos and destruction 
in the Middle East, threaten Russia's near abroad border-
states, and foment division here in the United States.
    In contrast, China is an ascendant power that seeks to 
become the dominant hegemon in Asia, while extending its 
influence across the Eurasian landmass and into Africa and 
Latin America. China's ambition appears at once more subtle but 
also more grandiose. It seeks to confine the American-led 
international order just to the Western Hemisphere, while 
building a new China-led order based on mercantilism, regional 
tributary states, and rules set and enforced by China, designed 
to benefit only China.
    This seems to be the strategic vision animating things like 
the Belt and Road Initiative, its belligerent island 
construction and base building in the disputed territories over 
the South China Sea, its flouting of international human rights 
and religious freedom standards, forced technology transfer and 
theft of intellectual property rights, victimizing many 
American companies, and then its ongoing information operations 
inside the United States and other free nations.
    So the second point about the role of America's national 
defense or military in countering these threats and preserving 
the best of the current international order. I think we need to 
appreciate that the current order is not self-sustaining or 
self-regulating. It is a product of American leadership in 
creating it and a strong military in helping to maintain it 
ever since, along with diplomacy, development, and other 
instruments of national power.
    And if that leadership is abandoned, whether through 
damaging cuts to our defense budget or through policy choices 
to neglect our allies and pull back from international 
leadership, then hostile actors such as Russia and China will 
only have more latitude to fill the void in ways that are 
harmful to our national interests.
    Many of us look back with appropriate nostalgia on 
America's vision and leadership during and immediately after 
World War II, on the signature diplomatic and economic 
initiatives that established the pillars of the international 
order. Things like the Bretton Woods agreements, the creation 
of the United Nations, the Marshall Plan, the creation of NATO 
[North Atlantic Treaty Organization], the reconstruction of 
Japan and Germany, and the web of mutual defense treaties that 
placed the United States at the geopolitical center of the free 
world with a network of allies really unsurpassed in world 
history. It was a very unique moment.
    Then, recalling this history, we should not forget that 
without America's military might, these institutions would not 
have been possible. And that included our military's role, of 
course, in defeating the Axis powers in World War II, but also 
helping to deter Soviet aggression in the immediate postwar 
years.
    So today, a robust effort to protect, reform, and restore 
the international order will depend, of course, on American 
diplomatic prowess and economic dynamism, in addition to 
committed involvement by our allies, old and new. But doing so 
will also depend on renewed American military strength, 
undergirding our diplomacy and economic engagement. Our 
military power provides the security and enabling environment 
for diplomatic and economic progress to take place.
    And this is where we need to appreciate how the rest the 
world looks at American power. From our vantage point here, we 
often think about American power differentiated into military, 
diplomatic, economic, across our interagency and reflected in 
different congressional committees.
    But when other countries look at American power, they see 
it more as a unified whole. So when a foreign minister or a 
finance minister sits across from our Secretary of State or 
Secretary of the Treasury, they are seeing American power 
manifested in all of its different dimensions, sitting right 
behind the Secretary's proverbial shoulder.
    And this gets to my final point about the role that our 
military power plays in projecting our national power in the 
current context. Five years ago, when testifying before the 
other body's Armed Services Committee, then CENTCOM [U.S. 
Central Command] commander, now Secretary of Defense, General 
James Mattis, made a memorable plea for the State Department's 
budget. We all know it. If you do not fund the State Department 
fully, then I need to buy more ammunition, ultimately.
    And I think General Mattis was right, but I also think the 
opposite is true. To strengthen the State Department's and 
American diplomatic and economic influence, we need a large 
defense budget. These are mutually reinforcing.
    In the vivid image of the strategist Philip Bobbitt, force 
and diplomacy function like the two blades of a scissors. They 
need to go together. If you only have one, you do not have a 
functioning scissors.
    So what does this look like in practice? I will just list a 
few specific benefits we see from strong military, often 
without firing a shot. It preserves the open lanes of global 
commerce and finance for the American economy. It induces 
fence-sitting countries to lean more our way, rather than 
towards our adversaries.
    It helps to secure and preserve peace treaties. Spurs our 
allies to spend more on their own defense. It strengthens our 
economic negotiating posture with allies. It strengthens our 
negotiating posture with our adversaries.
    It makes us more attractive to potential allies and 
partners. Provides new channels for diplomatic leverage and 
intelligence collection. Helps promote and strengthen democracy 
and human rights. And improves humanitarian relief operations 
and enhances our public diplomacy. And in my written testimony, 
I have a number of historical examples backing up each of those 
points.
    So finally, the prevailing international order, so 
successful in promoting America's prosperity and preventing a 
great power war over the last 75 years, now faces an 
unprecedented combination of challenges in an uncertain future.
    What is certain, however, is that any hopes of reforming 
and preserving this order in alignment with America's interests 
will depend in part upon maintaining a strong national defense 
and integrating that with our diplomatic and economic goals.
    Thank you very much.
    [The prepared statement of Dr. Inboden can be found in the 
Appendix on page 38.]
    The Chairman. Thank you. Dr. Brands.

 STATEMENT OF DR. HAL BRANDS, HENRY A. KISSINGER DISTINGUISHED 
   PROFESSOR, JOHNS HOPKINS SCHOOL OF ADVANCED INTERNATIONAL 
   STUDIES, SENIOR FELLOW, CENTER FOR STRATEGY AND BUDGETARY 
                          ASSESSMENTS

    Dr. Brands. Chairman Thornberry, Congresswoman Davis, 
distinguished members of the committee, thank you for having me 
here. With the proviso that my opening remarks reflect only my 
personal views, let me just briefly offer a handful of 
analytical points about our subject and then three 
recommendations for Congress.
    The first point is that the international order, as we know 
it, depends on American leadership. The absence of great power 
war since 1945, to dramatic growth of American and global 
prosperity, the fact that the number of democracies in the 
world has grown tenfold since World War II, none of these 
things happened naturally.
    They happened, in large part, because the United States 
used every tool in its toolbox to bring them about. The United 
States anchored military alliances and deterred aggression in 
key regions. It led an open global trading order. It encouraged 
the survival and spread of democracy. It catalyzed collective 
action in addressing key global challenges. Had the United 
States not played this role, there would be no liberal 
international order.
    Second, American leadership, in turn, depends on American 
military superiority. Since World War II, the United States has 
had a military second to none. After the Cold War, the United 
States had unrivaled military superiority. And this is simply 
because the world is a nasty place, and so a country that 
cannot defend its interests by force, if necessary, will 
eventually see those interests imperiled.
    It is not simply alliance guarantees alone that they keep 
the peace in Europe or East Asia, for instance. The United 
States has to have the usable military power to make those 
guarantees credible. And at numerous points during the post-war 
era, in the Korean War, in the Persian Gulf War, and in other 
instances, the United States did have to use force to defeat 
aggression that might have severely destabilized international 
politics.
    A third point is that U.S. military superiority benefits 
other aspects of statecraft. One reason U.S. economic 
statecraft has succeeded in forging a prosperous global economy 
is that U.S. military power has provided the geopolitical 
stability and the freedom of the global commons on which that 
economy depends. In the same vein, the United States gets 
better trade deals because of its military power.
    To give one example, when America and the European Union 
were both negotiating free trade agreements with South Korea, 
the United States got better terms because South Korea valued 
American military protection. And looking beyond economic 
statecraft, U.S. military power assists critical diplomatic 
goals such as nuclear non-proliferation because it provides the 
reassurance that allows allies such as Japan, Germany, and 
South Korea, to forgo nuclear weapons.
    A fourth point is that America needs a vast military 
superiority, not a marginal superiority, to preserve its 
interests. This is, in part, because the best way to deter wars 
is to convince rivals that they cannot win them. It is also 
because the United States has global responsibilities. Russia 
may be able to concentrate its forces in Eastern Europe; China 
can concentrate its forces opposite Taiwan.
    The United States does not have that luxury because it 
faces multiple challengers in multiple regions simultaneously. 
And so it is not enough for the United States to have the 
world's strongest military. It must have the world's strongest 
military by far.
    A fifth point is that, today, U.S. military superiority is 
being eroded by developments at home and abroad. The most 
serious challenge comes from the major power rivals that Dr. 
Inboden mentioned, China and Russia. These countries have 
conducted sustained military build-ups that are meant to offset 
U.S. advantages, to deny us access to Eastern Europe and the 
Western Pacific, and to allow these revisionist states to 
project power globally.
    And as a result of this, regional military balances have 
shifted dramatically. Chinese or Russian leaders might think 
that they could win a short war against America in the Baltic 
or the Taiwan Strait. And, of course, the United States faces 
intensifying military threats from Iran and North Korea, as 
well as continuing dangers from terrorist groups.
    At the same time, the United States has disinvested in 
defense over the past decade. Real dollar defense spending 
declined significantly after 2010, notwithstanding the plus-up 
from BBA 2018 [Bipartisan Budget Act of 2018]. And the 
combination of that decline and continuing budgetary 
instability has had severe impacts on readiness, modernization, 
and force structure alike. All told, the United States has less 
military capability today, relative to the threats it faces, 
than at any time in decades.
    Sixth, as U.S. military advantages erode, the international 
order will also erode. If Russia and the Chinese leaders think 
they can win a conflict with America and its allies, they will 
be tempted to behave more aggressively. If we can no longer 
project decisive power in the Middle East, Iran and terrorist 
groups will have freer reign in that region. And as U.S. 
military superiority is diminished, American competitors will 
feel empowered to challenge us across the full range of 
economic, diplomatic, and security issues.
    With this in mind, here are three recommendations for 
Congress.
    First, scrutinize closely the National Defense Strategy and 
the National Military Strategy, both of which were finalized 
this year. These documents outline how DOD [Department of 
Defense] will protect U.S. interests amid intensifying 
competition. And I would urge Congress to closely examine 
whether DOD has a realistic and unified approach to doing so.
    Second, prioritize long-term budgetary growth and 
stability. The budget increases due to BBA 2018 are welcome. 
But if defense spending flattens out after fiscal year 2019, 
DOD will not be able to do badly needed nuclear and 
conventional modernization simultaneously. It will not be able 
to repair accumulated readiness problems. It will not be able 
to sustain America's ability to project power. So sustained 
growth in defense spending is critical, as is ensuring that 
funds are provided in a stable and reliable fashion.
    Third and finally, remember that military power is not 
enough. Threats like Russian information warfare and Chinese 
economic coercion are largely non-military in nature. Gray zone 
conflict reaches across multiple dimensions of statecraft and 
is meant to shift the status quo without provoking a U.S. 
military response.
    And so even as the United States rebuilds its military 
advantages, it must also strengthen and better integrate the 
non-military tools of national power. And here, Congress can 
use its oversight authority to encourage whole-of-government 
approaches and ensure that there is balance among the tools of 
American statecraft.
    Thank you.
    [The prepared statement of Dr. Brands can be found in the 
Appendix on page 51.]
    The Chairman. Thank you. And thank you both.
    Henry Kissinger says this is a time where we have more 
information available to us than any people in history, and yet 
it is harder to have perspective than it has ever been. And I 
think both of you-all have helped provide some perspective.
    Dr. Brands, one of your statements really stood out to me. 
The United States has less military capability relative to the 
threats it faces than at any time in decades. Let me first ask, 
Dr. Inboden, do you agree that compared to what we face, what--
our advantage is less than any time in decades?
    Dr. Inboden. Yes, I would agree with Dr. Brands on that. I 
mean, perhaps a partial modification would be, the 1970s were 
not very good for our posture vis-a-vis the Soviets as well. 
But yes.
    The Chairman. And so, Dr. Brands, another point you said, 
we need a vast superiority. Not just a little bit, but a vast. 
But it sounds to me like that this statement that we have less 
capability relative to the threats, is also saying we do not 
have the, sort of, vast, significant I would say, superiority 
that we need. Is that right?
    Dr. Brands. Yes, I think that is right. I think we are 
headed toward a position of what might be called strategic 
insolvency, where we simply do not have the means that we 
require to achieve all of our ends. And I would just point 
specifically to studies, unclassified studies, which have shown 
that the United States would have enormous difficulty upholding 
its alliance guarantees, in the Baltic for instance or in 
defending Taiwan from a determined Chinese attack.
    The Chairman. Well, I just want to ask then, again, kind 
of, the so what question. So one of the statements in your 
testimony is, as U.S. military advantages erode, the 
international order will erode.
    I would like for both of you to explain to the average 
American why he or she should care. Why does that matter, if 
the international order that we have built in the last 70 years 
erodes? Why do not we just let other people go tend to their 
own problems? Why does it matter to our lives as we are trying 
to take care of our families and so forth? Dr. Inboden.
    Dr. Inboden. Well, Mr. Chairman, when I travel around our 
respective home State of Texas giving talks to, you know, 
average Texans about American foreign policy, this question 
does come up a lot. And the way I try to put it is the world is 
a pretty rough neighborhood. And if the United States is not 
the strongest guy on the block and steps back from that, 
somebody else will step in.
    We may think, as Americans, it would be nice if we could 
just, sort of, step back and let the other countries take care 
of their own business. But, unfortunately, a number of those 
other countries, such as China and Russia, have much worse 
intentions, much more malevolent intentions for the 
neighborhood. So we cannot expect the neighborhood is going to 
be peaceful if we let some other strong men come in.
    The Chairman. So if I am living in Amarillo, Texas, why do 
I care if China is the dominant power in East Asia?
    Dr. Inboden. Well, if you are living in Amarillo, Texas, 
you are going to have a couple concerns. One is just the fact 
that if we don't deter their aggression over there, it could 
well come to our home shores.
    And, again, this is where a troubling, but vivid, 
historical analogy is the 1930s. When the United States thought 
that we could just, you know, protect ourselves behind the 
security of two oceans, and let those problems in Asia and let 
those problems in Europe take care of themselves. We saw with 
Pearl Harbor that those problems would come over here.
    In a different way, the 9/11 attacks also showed us that 
problems in one corner of the world can come and hurt us 
elsewhere.
    Of course, more particularly for Amarillo, I know a lot of 
the farmers and ranchers in the Panhandle depend on open sea 
lanes and open maritime order for exports. And, again, we have 
taken those for granted, underwritten by American security the 
last 60, 70 years.
    But if we cede that to China, and if China decides that 
the--you know, the PLA [People's Liberation Army] Navy wants to 
dominate the open sea order rather than the United States, that 
gives China a choke hold on those markets, and could really 
hurt the pocketbook of farmers and ranchers in your district.
    The Chairman. Dr. Brands, why should the average American 
care?
    Dr. Brands. Just to build on something that Dr. Inboden 
said. We have become used to living in a world that is 
relatively peaceful, in which Americans can trade freely and 
enjoy the benefits of global commerce. That is not the normal 
state of affairs in the world. That was not the normal state of 
affairs in the world prior to 1945. It has become the state of 
affairs in the world because of the extraordinary exertions 
that the United States and its friends and allies have made 
over the past 70 years or so.
    But if we were unable or unwilling to make those exertions, 
I think we would see the world revert to a more normal state, a 
more competitive state. A state in which more aggressive 
countries, like Russia or China, would try to impose their own 
rules on the world or on parts thereof.
    And to give a very concrete example of how this would 
matter to Americans, imagine a world in which China has 
established, fully established, a choke hold on the South China 
Sea and all of the maritime commerce that goes through there 
which is a large portion of the world's maritime commerce. A 
significant portion of American trade flows through the South 
China Sea.
    Are we really confident that the Chinese, which have acted 
in a fairly protectionist and mercantilist fashion for decades, 
would uphold freedom of the seas and a freedom of the commons 
in the same way that we have? Are we really confident that they 
would not try to use their military control of the area for 
economic benefit in a way that would disadvantage American 
exporters? I would not be confident about that.
    The Chairman. I would not either. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Again, thank you both 
for being here. I wonder if we could talk a little bit about 
some of the more unconventional strategies that China and 
particularly Russia engage in?
    We know that the psychocultural strategies have really been 
integrated into their overall wartime strategy. And that is 
something, in fact, I think probably we would all agree that 
the United States has more difficulties with, particularly as a 
democracy.
    And I wonder whether you could comment, then, on what 
capabilities or resiliency the United States needs, the 
military actually needs, to counter those kinds of 
unconventional strategies?
    Dr. Inboden. Thank you very much, Congresswoman. It is an 
excellent question and something that Dr. Brands and I have 
been giving a lot of thought to and a number of other strategic 
thinkers as well. This is where I would first go back to some 
of the points you made in your opening statement, about the 
other elements of national power having a key role to play 
here: diplomacy, economic power, trade, intelligence as well.
    So before coming back to the Pentagon in particular, I do 
think that because we are in this new era of information 
warfare, we may need to think about reconstituting that part of 
our government. Maybe bring back an updated 21st century 
version of the United States Information Agency, which did so 
much during the Cold War to counter Soviet misinformation and 
to put a more positive message of the United States out there 
as well.
    Some of those capabilities I do think need to be under the 
Pentagon as well; but if we do a whole new agency like that, 
that might need to be separate. Likewise, I do think the 
Pentagon needs to certainly upgrade its cyber capabilities as 
we are seeing, you know, the Chinese pursuing this, to use 
Kissinger's phrase, salami-slicing strategy of incremental 
gains not necessarily overt uses of force.
    And then, the asymmetric advantages against us. You know, 
they are not trying to build, you know, 14 or 15 aircraft 
carriers to directly counter ours. But rather whether it is 
their cyber capabilities to disrupt our command and control, 
their anti-ship missiles, things like that.
    But returning to how American power is used. I do think it 
really needs to be an integrated effort, where the Pentagon is 
going to play an absolutely essential, but not fully 
sufficient, role. And we need to get the State Department and 
the other agencies in the fight as well, if you will.
    Mrs. Davis. Yes. Dr. Brands.
    Dr. Brands. I would largely agree with that. I would just 
open with the broad comment that while we have a defense 
strategy, while we have a military strategy, I am not sure that 
we have national strategies for competition short of war. And, 
in part, that is because the sort of competition short of war 
that we are seeing today occurs across jurisdictional 
boundaries within the U.S. government, to say nothing of 
occurring across jurisdictional boundaries internationally.
    And so it may be that we, in addition to needing particular 
tools, need additional ways of integrating the efforts of 
various pieces of the U.S. government to make sure that we are 
all moving in the same direction in addressing these 
challenges.
    I would agree on the centrality of the cyber realm in this 
respect. The only thing I would add here is that while I am not 
an expert on cyber, my understanding is that the challenges we 
face in the cyber realm are as much an issue of authorities and 
rules as they are of capabilities. In the sense that my 
understanding is that our cyber capabilities are quite good, 
but that we are only beginning to grapple with the question of 
how those capabilities might be used, in either a peacetime or 
wartime context, to protect our interests. And I think the 
DOD's cyber strategy that was released just recently is a 
useful step in the right direction.
    Mrs. Davis. Doctor.
    Dr. Inboden. Can I add? Yes.
    Mrs. Davis. Yes.
    Dr. Inboden. One additional thought on this is this is 
where I think America's security assistance programs run by the 
Pentagon in tandem with the State Department can play a really 
essential role, because our country has an asymmetric advantage 
with our values, with our democratic values. And those are 
quite attractive to a lot of other citizens, especially those 
living in autocratic repressive countries such as China and 
Russia.
    And particularly the role our security assistance has 
played in promoting civilian control of the military, rule of 
law, noncombatant immunity as a standard for using force. That 
is one reason why our growing web of allies and partners in the 
Asia-Pacific have been so repelled by China and have been drawn 
towards us. It is not just our strength, it is also our values.
    Mrs. Davis. Yes.
    Dr. Inboden. And, again, a lot of that is done by the State 
Department. But the Pentagon has a really key role to play in 
upholding those as well.
    Mrs. Davis. Thank you very much. Mr. Chairman, I might just 
add, I was going to follow up with their vulnerabilities and 
whether we are actually leveraging them as much as we could or 
should in the realm of free expression and other areas, again, 
that reflect our values.
    Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Mitchell.
    Mr. Mitchell. Okay, I will just yell. Thank you. Sorry, 
gentlemen. Dr. Brands, in your three recommendations, you refer 
to the Defense Department and their efforts to protect U.S. 
interests with intensifying conflict, that we need to review 
those plans and ensure they are realistic. My guess is you have 
already done that to some extent. Do you have specific areas of 
concern or questions whether or not, in fact, they are 
realistic? Any feedback for the committee?
    Dr. Brands. I would just flag two areas in particular with 
respect to the National Defense Strategy. And, in general, I 
think the National Defense Strategy is a very good document. I 
think it properly orients the Department of Defense toward 
major power competition. I think it properly flags the 
importance of U.S. alliances and partnerships. And I think it 
properly emphasizes issues of readiness and lethality.
    I have a couple of concerns about the how of that document. 
One is I think there is a question about whether the strategy 
that is laid out in that document is, in fact, ambitious 
enough. In some ways, it is a step back from the two-war 
strategy that the United States has had in one form or another, 
essentially since the end of the Cold War. And it, essentially, 
says that if we have to fight in one region, we will be capable 
of deterring but not necessarily prevailing in another region.
    And so I think it is important to know precisely what is 
meant by that. And precisely what level of risk we would be 
taking in the Middle East, for instance, if we found ourselves 
in a conflict in East Asia.
    Mr. Mitchell. Let me ask you a question about that. Does a 
part of the problem come with defining what a war is, at this 
point in time? You referenced a short-term conflict in the 
South China Sea versus the extended engagement we have had in 
the Middle East. I mean, those are dramatically different 
scenarios, correct?
    Dr. Brands. Absolutely. And I think the other challenge we 
face is that when we talked about two major regional 
contingencies during the 1990s, we were talking about most 
likely a war against North Korea nearly simultaneous with a war 
against Iraq.
    Some of the conflicts we are talking about today would be 
of an entirely different magnitude. If the United States had to 
fight a conflict against Russia or against China, these would 
be conflicts with countries that are major powers in their own 
right. They have their own precision-strike complexes. They 
both possess nuclear weapons and a range of advanced 
capabilities.
    And so these conflicts would consume a much larger portion 
of our force than the conflicts to which we became accustomed 
during the 1990s or the 2000s.
    Mr. Mitchell. One more quick question on that front, and 
then I want to change to another topic. But do you not believe 
that if we end up facing a conflict with either China or 
Russia, more often than not we end up doing that via surrogates 
and not necessarily with the nation-state itself?
    Dr. Brands. I think both of those are, unfortunately, 
realistic possibilities. And so it is entirely possible, for 
instance, that the United States could find itself wrapped up 
in a conflict with Russian proxies in the Middle East, for 
instance.
    Mr. Mitchell. Sure.
    Dr. Brands. But I think that we cannot ignore the danger 
that the United States might come into, whether by deliberate 
Russian action or miscalculation, a more traditional state-on-
state conflict involving our easternmost NATO allies. And that 
we might come into significant state-on-state conflict with 
China involving Taiwan or the East China Sea or the South China 
Sea.
    Mr. Mitchell. Let me change topics in the minute and a half 
I have left. You both talked, in one sense or another, about 
military and statecraft or statecraft as being parts of a 
scissors. I understand, in terms of engagement in countries, 
military aid, foreign aid--I have constituents that ask why it 
is that we are providing significant foreign aid to some 
countries that allege to be friendly but become a source of 
more than moderate conflict.
    How do we draw the--or concern, let us put it that way. We 
can name a few today if you would like. How do we draw some 
distinction and deal with those countries that really are not 
on board, but we end up, in one manner or another, putting a 
whole lot of money out the door for them?
    Dr. Inboden. I will take a quick stab at that, Congressman 
Mitchell. And, again, this is without defending every last 
dimension of the American assistance programs. So you know----
    But, in general, as I often even tell my students, policy 
making is not the art of choosing a good policy from a bad one. 
It is about choosing a bad policy from a worse one. And 
oftentimes those aid programs, as frustrating as they can be, 
as misplaced as it may be, are still giving us some leverage in 
preventing a bad situation from becoming worse. And we often do 
it because it is in our interest rather than necessarily a 
benevolent act for the others.
    Dr. Brands. I would just provide one example of that which 
is that the United States has engaged significantly with the 
Colombian military over the past two decades, even as that 
military and the Colombian government has had some struggles 
with its approach to human rights. But I think that anyone who 
has looked at this closely would argue that the leverage we get 
through that engagement allows us to improve Colombian 
performance on human rights issues. Whereas, we would not have 
that ability, if we didn't have these assistance programs.
    Mr. Mitchell. Thank you, gentlemen. I have a lot of other 
questions, but I will yield back. Thanks, Mr. Chair.
    The Chairman. Mr. O'Halleran. Sorry, technical 
difficulties.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    For either one of you. If we are to embrace the whole-of-
government approach to ensuring a strong military, how do 
current and proposed cuts to agencies like the State Department 
and the Department of Education and others affect the ability 
to maintain a strong military?
    Dr. Inboden. Congressman O'Halleran, I will take a shot at 
that one first. I think particularly on the State Department 
and USAID [U.S. Agency for International Development], I think 
those cuts are damaging. I reference back to my favorable 
citation of then General now Secretary Mattis' quote about, you 
know, if we make those cuts, he is going to have to buy more 
ammunition at the Pentagon.
    So I am not here to tell an exact number of what they all 
should be. But I do think that, overall, the United States 
underinvests in our international power and influence and force 
projection across those agencies.
    Dr. Brands. I think there is simply no way of robbing Peter 
to pay Paul, in this respect. You have to think of force and 
diplomacy as being interdependent. And if you are skimping on 
either one, you are going to suffer the consequences of it.
    I would just offer a couple of examples. If we are talking 
about the State Department in particular, the State Department 
possesses immense country and regional expertise that can be 
useful in charting American foreign policy and considering what 
the best military strategy might be in a given context. The 
State Department possesses the intellectual capital that is 
necessary to translate American military leverage into 
diplomatic results at the negotiating table. And so these 
things really do go together in a cohesive whole.
    Mr. O'Halleran. It appears China is expressing a desire to 
extend its power everywhere. But in particular, I am concerned 
about Africa. And as we pull out of certain locations, they 
move in quickly and now into South America. What long-term 
implications is that going to mean to both our economy, because 
of those natural resources and markets that are in Africa, and 
to our ability to keep the sea lanes open?
    Dr. Inboden. I think a growing concern, which I am sure, 
you know, many of the members of the committee are aware of is 
China's growing military presence in Djibouti. Very--you know, 
right there on the Red Sea close to the Suez Canal choke point.
    So I think we were perhaps--when they first showed up there 
about a decade ago, we were perhaps a little lackadaisical 
about it. And now that gives them some real leverage, both 
going into the African interior, but especially in one of the 
two most important, you know, sea lane choke points on the 
globe.
    But likewise, there is also the method of China's economic 
engagement with Africa and South America. It does seem to be 
mercantilist. It does seem to be undermining rule of law. It 
does seem to be promoting corruption. And I think reversing 
some of the hard-won gains in those continents for economic 
growth and good governance.
    But at the same time, sometimes the Chinese are doing it in 
ways that are producing antibodies and local resentments. It is 
an opportunity for American engagements. But in other ways, 
some of those countries feel kind of abandoned by the United 
States and are rushing into Beijing's embrace. So it is a real 
concern.
    Dr. Brands. Just focusing on the Western Hemisphere, while 
most Chinese engagement at this point is diplomatic and 
economic, we have seen growing Chinese military engagement as 
well and ties with the region's military; the construction of 
facilities that could have military applications in Argentina.
    And so, over the long term, I worry that China might try, 
essentially, to do what the Soviet Union did during the Cold 
War, in the gaining leverage on the United States by 
establishing a military presence within the Western Hemisphere.
    Just building on something that Dr. Inboden said, while we 
are certainly dealing with the consequences of increased 
Chinese engagement in sub-Saharan Africa and in Latin America, 
the best antidote to that is our own engagement, rather than 
necessarily trying to frustrate China's.
    Mr. O'Halleran. Thank you, Mr. Chairman. I yield.
    The Chairman. Dr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    I would actually like to do a--sort of a different spin on 
the question the chairman asked at the beginning to Dr. 
Inboden, which is to say what would--when it--as it pertains to 
the role of allies, specifically, which we have had a robust 
debate in the last election cycle about, what would be your 
elevator pitch, not only to Texans but also to Northeast 
Wisconsinites, about the value that allies play in this U.S.-
led global order?
    Dr. Inboden. So the role of allies. This is where I would 
make a couple of historical and a couple of practical points. 
The first one I alluded to earlier is the United States is 
almost unique in world history, when you look at previous 
global great powers, global empires, in having the allies that 
we do.
    And when Americans, skeptical of allies, first hear that, 
they think, okay, these are more burdens we have taken on. But 
allies are also--these are countries that have sworn themselves 
and their young men and women to die on behalf of Americans, to 
stand alongside us and fight there. So that is something 
unique. Other countries do not necessarily have this.
    Then, I would point to one reason we know our allies are 
such a source of strength is they drive Russia and China crazy. 
That is why Russia and China are spending so much time trying 
to peel our allies off from us.
    The third point I would make, especially when the burden-
sharing question comes up and whether our allies are doing 
enough for their defense, is that is a concern I share. I am 
glad to see a number of our allies finally increasing their 
defense commitments. But, oftentimes, and this is less 
appreciated, the best way for us to get our allies to step up 
their defense spending is to maintain and increase our defense 
spending.
    A great example is Japan in the 1980s and the Reagan 
administration. We were having acute frustrations with Japan as 
essentially a free rider on the American security umbrella. 
They were tremendously underfunding their defense forces.
    Then, once Reagan comes into office, dramatically increases 
the American defense budget. That gave him leverage to go to 
Prime Minister Nakasone. And Nakasone, in turn, took great 
political risk and dramatically increased Japan's defense 
budget and their maritime defense perimeter as well. So I think 
that is a case study. When we do more, our allies will step up 
and do more as well.
    Mr. Gallagher. So, in that dangerous neighborhood you 
referenced earlier, it helps to have friends that have your 
back.
    Dr. Inboden. Exactly. We can never have enough friends.
    Mr. Gallagher. All right, Dr. Brands, we have invoked Henry 
Kissinger at various points in this hearing. But it almost 
sounds like we are making a critique of a Kissingerian form of 
realism, right? It seems like both of your testimonies support 
more of a unipolar world. I mean, to the extent that is true. 
Push back on that if that is not true at all.
    And if it is, however, if it is not stable to arrive at a 
balance of power between Russia and China or Russia--I mean, 
America and China or America, China, and Russia, some sort of 
bipolar, multipolar world, what is it that the structural 
realists are missing about the current state of play in the 
world?
    Dr. Brands. So I would broadly agree with the statement 
that a unipolar world brings stability that a multipolar world 
would not. Because what it essentially allows the United States 
to do is to sit on the sources of conflict in the international 
system.
    And so we can maintain those alliances in regions like 
Europe and East Asia that suppress historical antagonisms 
between, say, Japan and its neighbors. We can prevent countries 
from destabilizing the system by pursuing means of aggression. 
We can check phenomena like nuclear proliferation that could 
make the world much, much more dangerous.
    And so the fact that we are willing to pay a little bit 
more, in terms of maintaining the system, means that we 
actually get a very good deal in the long run because the 
world, as a whole, is much more congenial to our interests and 
to our values.
    Mr. Gallagher. Yes. Now, I am running out of time. But is 
there--given that we do not have infinite resources, the world 
is very dangerous. Is there anywhere you think we can play a 
little bit of money ball, where we may be able to reduce our 
investment and actually get more in the process?
    Dr. Brands. I think, just as a matter of reality, we are 
probably headed toward the period in which we will be taking 
more of a light-footprint approach in the greater Middle East. 
But I think it would be a mistake to think that we can somehow 
disinvest from that region entirely. We still have forces 
operating in Afghanistan, in Iraq, in Syria. We still face 
significant threats from terrorist groups.
    And we have seen that when we pull back, those threats get 
bigger. We still face the threat from Iran. And so we may have 
to shift our prioritization of various regions. But we will not 
be able to disengage fully in a military or other sense from 
the Middle East.
    Mr. Gallagher. Dr. Inboden, quickly.
    Dr. Inboden. I would agree with Dr. Brands. I mean, too 
often the debates are put--it is an all-or-nothing. We are 
either entirely in the Middle East and overleveraged there or 
we are entirely out. Likewise with Asia or Europe.
    So I do think a recalibration is in order, perhaps a half-
step back from the Middle East and South Asia compared to where 
we were 10 years ago. But as we saw with our complete pull-out 
of Iraq in 2011 and then the commensurate rise of the Islamic 
State, we way overdid it there.
    And so sometimes even a--you know, a residual leave-behind 
force in a key region can play exponentially better benefits 
for us as a preventive.
    Mr. Gallagher. I thank you both. Mr. Chairman, I know when 
you refer to me as Dr. Gallagher, you are making fun of my 
failed academic career. But I will take it, nonetheless.
    The Chairman. It is only appropriate if Dr. Gallagher was 
going to question Dr. Brands and Dr. Inboden, that you all be, 
you know, on a similar page there.
    Ranking Member. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank both 
doctors. And we appreciate Dr. Gallagher being here, too.
    And as--the last 70 years, America has maintained its 
values and freedom by upholding the security umbrella for the 
rest of the world. During that time, we have witnessed Western 
Europe's survival. We have seen Asia's economic boom. We have 
seen the collapse of the Soviet Union.
    And the result is that we have--with deliberation of and 
the establishment of democratic governments in Central and 
Eastern Europe, also in Central Asia, we now see the largest 
number of nations in the history of the world which have free 
and democratic governments and institutions. To me, it is very 
exciting.
    And it also relates, as you cited, global commerce, 
opportunity that we have never really had before. Whether 
through soft or hard power, diplomatic peace, when executed 
through American military strength, has continued to provide an 
effective countermeasure against adversaries. The strength is 
also reinforced by the defense industrial base, which continues 
to innovate, support the global economy, and provide confidence 
for our warfighters in cutting-edge technology.
    With that in mind, as Congress continues to invest 
effectively, and we will be voting later today, with the 
leadership of Chairman Mac Thornberry, for the first time in 22 
years to actually fund the military within the fiscal year. 
What an extraordinary achievement.
    With the investment industrial base, how can we maintain 
our competitive edge when intellectual property theft is so 
fragile within the military industry? And either one of you can 
answer.
    Dr. Brands. So I think that one of the benefits of 
increased investment in defense is that it will help sustain 
the industrial base that you talked about. And so one of the 
negative effects of the past--of the period since 2010 is that 
we have lost, I think, around 10,000 prime defense vendors 
simply because there is not sufficient regularity or size of 
funding to sustain them.
    And so it is worth remembering that if we--if we are 
looking at a point where we might have to significantly 
mobilize the Nation for a conflict, we need to have that 
industrial base to draw on. And I think that that also involves 
taking stronger protections for intellectual property and 
pushing back against industrial espionage and other practices 
that our adversaries have taken to undermine our industrial 
base.
    Dr. Inboden. And I would add to that, thinking about both 
China and Europe. The first is, while I am generally a pretty 
committed free-trader, I am supportive of some of the current 
administration's efforts to really go after China on its IPR 
[intellectual property rights] theft and forced technology 
transfer, and a number of other things.
    However, going back to my comments about allies. I worry 
that we are taking this fight on with one hand tied behind our 
back, because we have our withdrawal from TPP [Trans-Pacific 
Partnership], some of the other tensions with a number of our 
allies. I think we would have a more effective way of 
addressing China's malevolence in this area if we were doing it 
with a united, broad, multilateral front.
    Then the second point would be when we were having this 
issue with the Soviet pipeline and a number of our European 
allies in the Cold War sharing sensitive technology with the 
Soviets. Again, sometimes you have to address that 
asymmetrically. And the way we were bringing our European 
allies on board was when we deployed the intermediate-range 
nuclear forces in Europe, enhanced their sense of security. And 
that gave them a little bit more of a comfort level to then 
stop sharing so much technology with the Soviets.
    Mr. Wilson. Thank you very much. And I--additionally, the 
challenge of regularity, hopefully Chairman Thornberry is going 
to get that corrected. But another challenge we have is the 
lengthy and oftentimes difficult acquisition process that 
stunts the growth of our ability to provide the best equipment 
to our military personnel. What solution do you have?
    Dr. Brands. With the proviso that I am not an expert on the 
acquisitions process, I think what we have discovered is that 
the current DOD acquisitions process, which places a premium on 
developing exquisite systems over a period of 15 to 20 years, 
is probably not well suited to the era of rapid innovation and 
intense competition into which we are entering.
    And so I think it is likely that we will need to open the 
aperture, perhaps modestly, to allow scope for acquisitions 
processes that can move faster and perhaps take a little bit 
more risk as the price of the higher level of innovation.
    Dr. Inboden. I would agree with Dr. Brands.
    Mr. Wilson. And thank you. And, again, with the ever-
changing technology, any recommendations you have on how this 
can be handled would be very appreciated.
    Thank you very much for being here today.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you. I think a lot about the labor 
workforce that we have to depend upon to make the stuff that we 
use to protect the country. I used to run the 2-year college 
system in Alabama and was the chair of the Workforce Planning 
Council. And one of the things we had to do was to get our 
workforce ready to build a brand-new class of Navy ship. So we 
had to create that expertise from scratch.
    So one of the things that has concerned me is that we get a 
labor force up and trained to create a certain weapon system. 
And then, we say, okay, now we are going to shift to another 
one. We have got a hiatus here of a couple of years. And then, 
that workforce is let go. And then we have got to go hunt up a 
new workforce. Get them trained. Take the time to get them to 
the level of expertise that they can do the work.
    Any thoughts about what we can do about that?
    Dr. Inboden. Well, again, that is getting a little far 
outside my realm of expertise. But I will just say that, one, 
this is a problem not just for our military industrial base but 
also for the country writ large, obviously. With automation. 
With some of the--you know, some of this rapid innovation.
    And so this gets back to the--you know, the--to use the 
cliche, the need for a whole-of-government approach and making 
sure education system is preparing people for--you know, 40 
years ago, it was for one or two jobs over the next 40 years. 
Now, it may be for 40 different jobs over the next 40 years.
    But the thing I would say is, stepping back, when we look 
at different windows when we have rather precipitously cut our 
defense spending, whether it was 1945 to 1950, right after 
World War II, or the Cold War peace dividend right afterwards, 
we overcompensated with that and some of the short-term gains 
we got, whether in, you know, diminished government spending or 
transfer to the private sector, were soon overtaken by much 
more costly security challenges, as well as having to go back 
and reinvest and getting a lot of those assembly lines up and 
running again.
    So I think being a little more gradual in our changes would 
be a key.
    Mr. Byrne. But also, I was talking to a company this 
morning that does things in the aviation industries. And so 
much of the stuff that they are doing started out as defense, 
but now it is being used over in the civilian side. So the 
impact of defense spending and defense technology on the rest 
of our lives is pretty significant. Still, we have to have 
people with that expertise, you know, at different levels.
    And, by the way, I am a big skeptic about how far 
automation is going to go to replace a lot of these workers. I 
think people are being a lot more optimistic about what 
automation can accomplish than is actually case.
    But I worry about that workforce. You are right, it is 
across the board. It is not just in DOD. But I worry that when 
we make decisions in defense, we do not think about what the 
consequences are to the workforce and then to the overall 
economy. And we have this, sort of, up and down cycle.
    Dr. Brands. I would just say, I think part of it goes back 
to the regularity of funding. So the more turbulence we have in 
levels of funding that is provided, the worse it makes the 
turbulence for the workforce as well.
    The only other thing I would add is that I think what the 
challenges we face today, particularly the challenge from China 
has highlighted, is that there are shortfalls, not just in the 
way that DOD approaches national security challenges, but the 
way the country as a whole approaches national security 
challenges.
    And I think the Chinese challenge, in particular, is 
highlighting the gaps we face in STEM [science, technology, 
engineering, and math] education. I think it is also 
highlighting the challenges we face in getting close productive 
cooperation with some of the highest innovation parts of the 
American economy. I am thinking of Silicon Valley in 
particular.
    And I do not have easy solutions to either of those two 
things. But those are two areas that I think both the 
Department and people who care about national security more 
broadly will need to be focused on intensely in the years to 
come.
    Mr. Byrne. Well I do not have any doubt if we make it a 
focus, just like we did at Sputnik moment in the 1950s and when 
we put a man on the moon, when we focus on something, American 
ingenuity, American know-how, and just the quality of the 
American worker will do it. But it is like we do not have our 
policy act together to know what it is we are trying to do. 
Strategically, what are we trying to accomplish?
    And maybe--I hate to say this. Maybe China is forcing us to 
focus on something we should have focused on all along.
    Dr. Inboden. One other thing I would add on that is the 
private sector has to step up here as well. And I am concerned 
about some of the trends we see in Silicon Valley, you know, 
which is still the main hub of American innovation, where, you 
know, the revolt of the Google employees over any sort of 
cooperation with DOD.
    And yet, relative silence over what seems to be a growing 
Google entree into China and cooperating on a censored search 
engine. And so, you know, the Pentagon, you know, and the last 
couple of Secretaries, has done quite a bit of outreach to 
Silicon Valley. But that needs to be reciprocated by the 
private sector as well to understand that, yes, they may be 
Google employees, but they are American citizens as well and 
there is a duty there.
    Mr. Byrne. Thank you for both of your insight. I yield 
back.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I apologize for coming 
in late. I had meetings downtown this morning.
    So when you look at the budget, and we have no end of 
challenges and needs to be met, where do you think we can save 
money? Where are we spending money in the budget right now that 
we should not be, in order to meet those needs as you have 
defined them? And I understand there can be a hundred different 
definitions of what our priorities are and what it is we need 
to be in--to encounter.
    As you have defined them, you know, and you look at the 
Pentagon right now--and I get the acquisition procurement 
reform piece, I am talking more about specific, concrete 
programs. Is there a place where we are spending money that 
does not really match up with what the threat environment is 
going to be going forward?
    Dr. Brands. So I think we sometimes have a tendency to 
invest in legacy systems that are, perhaps, less relevant to 
the conflicts of the future than we might like them to be. And 
so without getting into a great deal of specific, it is--it may 
be that----
    Mr. Smith. If I may, if you do not get into a great deal of 
specific, it does not do us any good.
    Dr. Brands. Well, that is fair enough. But my concern is 
simply that not being an expert on particular military systems, 
I would hesitate to speak too specifically about it.
    But I will give you one example. So it may be that having a 
large number of fourth-generation fighter aircraft that cannot 
actually operate in the more contested environments in East 
Asia or Eastern Europe or perhaps even the Middle East in a 
place like Syria, is not going to do us a great deal of good.
    It could be that there are circumstances in which we might 
not be able to use our carrier fleet, for instance, in a 
conflict with China. And so it may be that we need to be 
putting more money into the technology of the future, whether 
it is fifth-generation fighters or unmanned underwater and 
unmanned aerial vehicles that can bust A2/AD [anti-access, area 
denial] bubbles than into the legacy systems.
    But what I would just say there is that even hoping to 
achieve great capability through innovation requires money. And 
so what we found at the end of the Obama administration was 
that DOD was doing some very interesting things with new 
technologies under the aegis of what was then called the Third 
Offset Strategy, but did not have sufficient funds to actually 
develop and field those capabilities.
    All right.
    Dr. Inboden. So I will first make a comment about something 
that is outside of the committee's jurisdiction but I do think 
is pretty strong. Before talking about cuts to the DOD budget, 
I do think we need to talk about the overall United States 
Government budget.
    And, again, by historical comparison, in the 1950s when--
under the Eisenhower administration, the Pentagon was about 50 
percent of the Federal budget because we did not have the, you 
know, massive domestic entitlements we have now.
    Mr. Smith. Right. True. Stop here one quick second. And I 
was going there next.
    Dr. Inboden. Okay. Okay.
    Mr. Smith. But here, I am not talking about that debt, 
deficit, whatever. I am simply saying the Pentagon was going to 
spend $720 billion. I am not saying the debt--let us imagine, 
for the moment, that we had a balanced budget. Even a surplus, 
as long as we are fantasizing. It is still quite possible that, 
even in that environment, there is money being spent at the 
Pentagon that should not be being spent. In fact, I would say 
it is likely.
    So that is what I am asking, is, you know, get into the 
broader debt and deficit question of the moment. I am simply 
saying that you both, and I am sorry I missed it, but had your 
outline, if here is our National Security Strategy, here are 
the threats we face, here is what we ought to be prepared to 
do.
    What are we spending money on right now that has more to do 
with either legacy or loyalty to a program, but that we do not 
really need to be spending money on, based on our national 
security strategy? So just staying in that lane for the moment.
    Dr. Inboden. Okay, I will give you three. And, again, the 
philosophy behind these is I think the emphasis needs to be on 
the warfighter, on readiness, on future weapon systems. So 
TRICARE, retirements and pensions, and then the DOD civilian 
workforce. I think there is areas for reform and significant 
savings in all those, even though they may be politically very 
difficult. But I think those could free up more resources, 
again, for the warfighter, for readiness, for new weapon 
systems.
    Mr. Smith. Yes. And as far as the debt and deficit are 
concerned--and I know we have heard the statistic before, and 
this is very true, that, you know, prior, you know, in the 
1950s, we spent a higher percentage of GDP [gross domestic 
product]. But that, primarily, was because we did not have 
Medicare and Medicaid. I mean, those are the two, you know, 
huge programs which meant that, well, old people died a heck of 
a lot sooner than they otherwise would have. So there is a 
certain value to Medicare that I think we would all 
acknowledge.
    When you look at the debt and the deficit, and, here, I 
will allow you to bring other things in, you know, $22 
trillion, I think it is going to be a trillion dollars this 
year, how big a threat do you think that is, to your view, of 
what the defense budget ought to be? Putting aside, for the 
moment, disagreements or whatever. But when you look out and 
say, okay, this is what we need for defense, you know, how 
problematic is it going to be to get there with our debt and 
deficit where they are at right now?
    Dr. Brands. So I would say that we do not quite know when 
the crunch will come with respect to the deficit and debt. But 
I'm quite sure that it will come. And at some point, if it is 
not addressed, it will crowd out discretionary spending, in 
general, if larger and larger shares of the Federal budget are 
going to debt-service payments, entitlement programs, and 
other, essentially, mandatory spending.
    And so if we do not get a handle on the problem, at some 
point we are going to find that we will be constrained in 
paying for national security. I would not necessarily suggest 
addressing budget deficit challenges by adjusting the DOD 
budget. But I think, as a general proposition, the idea that it 
will be crowded out eventually if we do not solve the problem 
is true.
    Dr. Inboden. And I will just add the additional threat 
that, you know, not all debt is created equal. And the debt 
that is held by, say, an adversary like China, you know, I know 
the economics are complicated but it potentially gives them 
some more leverage over us than debt held by Americans or by 
our allies, so.
    Mr. Smith. Yes. I mean, to a certain extent, China wants us 
to pay them back. So it sort of goes both ways.
    But when you said the defense should not be a part of the 
equation. Defense is still, I think, 17 percent, 18 percent of 
the total budget. It is a big chunk of it. And if you have got 
a trillion-dollar debt, it would still be your vision that, as 
we deal with that, defense should be off the table?
    Dr. Inboden. Again, I would not say defense off the table 
entirely. Like I said, I identified a few, you know, specific 
areas as you had requested for potential savings there. But 
part of it comes back to a philosophical conviction about the 
primary role of government to secure the--and provide for the 
national defense.
    And so that is always going to be an essential for me. And 
no matter how assertive we may be on, you know, reducing the 
debt or deficit, if that is leaving us vulnerable to attack 
from adversaries, then that is going to cause a lot more damage 
to our country than the debt. But I do not want to be blase 
about that at all.
    Like I said, I give the historical context and I am not at 
all calling for eliminating Medicare or Medicaid, or Social 
Security for that matter. But I do think, when you look at the 
trend lines and the growing proportion of the budget that they 
are occupying, which is only going to continue, I do think 
there is room for substantial reform there and some potential 
savings which might relieve some of the pressure on the defense 
budget.
    Mr. Smith. What about base closure? Do you think base 
closure could save us significant money and does it make sense?
    Dr. Inboden. Yes, I certainly think there is room for that. 
I mean, my first boss in Washington 25 years ago was Sam Nunn, 
then the chairman of the SASC [Senate Armed Services 
Committee]. You know, he was a real pioneer on this. And 
sometimes the best thing we do need to do for the Defense 
Department is asking some tough questions and maybe closing 
some inefficient bases.
    But I don't have the expertise. I am not equipped here to 
start identifying which ones need closing.
    Mr. Smith. No. No, I know that.
    Dr. Inboden. Yes.
    Mr. Smith. That would be awesome, by the way, if you could 
[do] that. If you could save us the time of the commission and 
just lay it out right now. But thank you very much. I yield 
back.
    The Chairman. Let me go back to, I guess, in some ways, the 
next step between that conversation between you-all and Mr. 
Smith. Because it gets, really, to kind of the heart of the 
topic of this hearing. I have--and I will get you both to 
comment on this. I have come to think of it of a bit of a 
chicken and egg situation. You have to have a growing economy 
in order to have the tax revenue to pay for the military.
    You also have to have a strong military in order to have an 
economy, in a globalized world, that is growing. And so there 
is a mutual dependency there that I do not think we fully 
appreciate. Now, that is my thesis. And I would be interested 
if either or you disagree--especially if you disagree or agree 
or what your reflections are on that.
    Dr. Brands. I would fully agree. And, again, the example I 
would simply give is that we will not have a prosperous and 
thriving economy if Americans do have not have access to global 
markets because the sea lanes are becoming increasing contested 
and endangered. And that is just a very concrete example of how 
you cannot have one without the other.
    Dr. Inboden. And I will add, specifically there, while very 
much affirming your general proposition about the virtuous 
cycle between a strong national defense and a growing economy, 
without getting too much into the defense industrial policy 
which is beyond my expertise, not all government spending is 
created equal. Some of it really does have multiplier effects, 
as investments in the future, education can be that, I think a 
lot of our DOD programs can be that, in ways that, say, some of 
the welfare state entitlement programs, for all the good 
benefits they have, they will not necessarily produce the 
growth benefits.
    And so even looking at--most innovation in the United 
States have been driven by the private sector. But things like 
nuclear energy, the internet, GPS [Global Positioning System], 
a lot of those started off as DOD research programs for, you 
know, the defense and security ramifications. But we quickly 
realized those also have profound private sector applications 
which have been incredible drivers of American economic growth, 
so.
    The Chairman. Let me ask about and touch on another area 
that we have not really touched on so far today. And that is I 
am always struck by the statistics that show global poverty at 
an all-time low, about how many people have been lifted out of 
the lowest level of poverty in fairly recent decades. Now, some 
people say that is all about technology. Some people say that 
is all about China's growth, and that is where most of the 
people come from--you know, et cetera.
    But my question to you all is, these are remarkable 
statistics, again, I think we underestimate. What role has the 
international order that we have enforced played in this rise 
out of poverty of so many million people in the past few 
decades?
    Dr. Inboden. I want to start saying peace. The absence of 
war is a great antidote to poverty. I mean, you know, we 
certainly see, historically, war is one of the great triggers 
of poverty, you know, with the death and destruction and 
devastation that it causes.
    And so--insofar as, you know, our military has, you know, 
preserved the great power peace for the last 75 years, that, in 
and of itself, has, you know, given, say, a country like China 
the opportunity to, rather than being fearful of being invaded 
by its neighbors or being in a regional war, to undergo, you 
know, tremendous economic reforms and development there.
    But Dr. Brands have may something to add.
    Dr. Brands. My understanding of the statistics is that the 
world as a whole has averaged about 3 to 4 percent growth since 
the end of the Second World War, which does not sound 
impressive until you compare it to growth in previous periods. 
And it is about two to three times as high as what average 
world growth levels had been before that.
    And I think the reason for that is twofold. First, we have 
not had a major global depression since the 1930s, in large 
part because the United States has played the leading role in 
managing the international economy and ensuring that economic 
problems, when they do arise, did not snowball in the way that 
they did in the late 1920s and 1930s. And, two, we have not had 
a global or a great power war since 1945, which has 
traditionally been the sort of thing that sets back 
international economy by many, many steps.
    And so the fact that we have prevented those bad things 
from happening has had a powerful impact on not just American 
prosperity, but global prosperity. And that is in addition to 
all the work that we and our allies have done to create a 
global free-trade system and sort of move the ball forward on a 
day-to-day basis.
    Dr. Inboden. If I can add a quick thought on that, because 
Dr. Brands mentioned our alliance system. This is where--when 
we look at America's allies today, they are, without exception, 
first-world countries with robust developed economies and very 
little poverty.
    But on the chicken and egg thing, that was not always the 
case. When we formed our alliance with Japan, with South Korea, 
these were tremendously impoverished places. You know, as 
recently as the 1960s, South Korea had the same per capita, 
excuse me, GDP as Ghana, for example.
    Now, of course, much credit to the South Korean people for, 
you know, their own economic recovery and dynamism there. But 
the American security umbrella played a tremendous role in 
that. As well as, arguably, the--you know, the presence of our 
forces there, you know, some of the positive interactions that 
they had and partnerships they were building with the South 
Korean people.
    Similarly, when you compare West Germany's economic 
recovery with East Germany's. You know, so, I liked the Germany 
and Korea ones because you have a great laboratory there, 
common language, common culture, common history, common 
geography. But one was part of the American alliance system. 
The other was not.
    The Chairman. Okay. So both of you-all teach some of the 
brightest students in this country about these kinds of 
historical geopolitical issues. Do they understand how unique 
this period in world history is? Do they take it for granted? I 
mean, what is your teaching experience like, when you kind of 
talk about these issues and what has been achieved in the last 
70 years? Do you get blank faces? Do they--are they proud? What 
is the interaction like?
    Dr. Brands. I would say that they are increasingly coming 
to appreciate how extraordinary the past 75 years have been, in 
part because they are witnessing the way in which the world 
seems to be growing more dangerous every day. And so it is 
easier for them to imagine what a world that was not relatively 
peaceful, prosperous, and democratic would look like.
    I would further add that I think history is a great teacher 
here. And so to the extent that whether when we are dealing 
with the students at Johns Hopkins SAIS [School for Advanced 
International Studies] or at UT [University of Texas] or with 
any citizen, the more, sort of, historical sensibility we can 
provide, in terms of demonstrating that the past 75 years have 
not been the norm in human history, they have been very much 
the exception, is a way of driving home the points that we have 
been talking about here.
    Dr. Inboden. And I will just add to that with a shout-out 
to our wonderful students at the LBJ [Lyndon Baines Johnson] 
school and at the University of Texas Austin more broadly. On 
the one hand, you know, each fall, when we welcome a new class 
in, one of the first discussions I have with them is what are 
their memories of the 9/11 attacks. And 10 years ago, these 
were very vivid memories. They were in elementary school or 
junior high or high school at the time.
    You know, by next year, we will have the first generation 
of college freshmen who were almost all born after 9/11. And so 
I am realizing what used to be a memory we could rely on about 
our country's vulnerability and the need for a strong military 
is now becoming a history lesson.
    But the second thing I found, to my great encouragement, is 
each May, I take 20 UT undergrads, sponsored by the Clements 
Center, over to London for a month of study on the history of 
the U.S.-U.K. [United Kingdom] relationship. And this is very--
you know, a strong focus on World War II and the Cold War.
    And we take the students over to Omaha Beach for 3 days. To 
the D-Day beaches for 3 days, including the Omaha Beach 
Cemetery. And having them walk through the Omaha Beach Cemetery 
and see those 10,000 graves of American soldiers who were their 
age when they were killed. And see that this was the sacrifice 
that America made to liberate Europe from fascism is very 
powerful for those students, much more so than any, you know, 
seminar or a lecture I could give them.
    Then, we take them to Pointe du Hoc. And not just showing 
them where the Rangers scaled the cliffs, but showing them 
where President Reagan stood on the 40th anniversary of D-Day, 
talking about the importance of Western solidarity against the 
Soviet Union. Talking about how 40 years ago, the Germans were 
our enemy here and now they are our ally in fighting against 
the Soviet Union.
    That sort of history brings this alive to the students and 
shows them, I think, the very rich inheritance that they have, 
and that it is now incumbent on them to take forward as the 
emerging generation of American leaders.
    The Chairman. Well, I wish all our students had that 
opportunity. I am struck by the fact, Ms. Davis, that I think 
it is more than 70 of the members of the House were not in 
office on 9/11. And, you know, it does make a difference if you 
felt like the planes were coming for us versus a historical 
memory.
    Ms. Davis.
    Mrs. Davis. Yes. Well, thank you, Mr. Chairman. I 
appreciate your mentioning that, because I know that I often 
say to my constituents that I came in in 2001. Obviously, that 
day is an incredibly strong memory. And yet we have essentially 
been involved in the same war that was started after 9/11. So 
it gives you a real sense of that connectedness to that and the 
fact that, of course, young people today do not have that--will 
not have that same connection.
    I wanted to follow up a little bit on just what you have 
said, and then ask another question that you have dealt with, 
but perhaps can expand a little bit. One is just this 
resiliency. And it is the connectedness to history for young 
people and the opportunities that we have to build that more. 
And one area of interest has been, for many people, including 
General McChrystal and others, is national service.
    Whether you feel that as you see students coming to you 
today, do you believe that there is something that we, as a 
nation, could--should be doing to instill more sense of where 
our country has been and where we want to go? How--and is there 
one way that you have--or several that you feel that we really 
should be pursuing that? Even talking about that here in the 
Armed Services Committee.
    Dr. Brands. Well, I would just put in, again, a broad plug 
for historical education. And I think, you know, we all 
probably took our high school class on U.S. history and found 
that it ended somewhere around World War II or Vietnam because 
you never quite get through the entire year.
    But what that means is that students who come through 
college, or even make their way to grad school, have not 
necessarily spent a lot of time thinking about the post-World 
War II era, and what makes it unique and what makes it special, 
and what has made U.S. foreign policy successful during that 
period. And so I fear that without a good historical 
understanding of that period, we will continue to struggle to 
generate support for the policies that are needed to keep the 
good times going.
    The second point I would just make is that I find that 
dealing with my students, they have a very strong urge to serve 
in one way or another. But--and this is, perhaps, a small 
point--it has become more and more difficult for them to do so 
over the past 10 to 15 years. And that the avenues available to 
them to say, go work for the Federal Government as a Department 
of State civil servant, for instance, are harder to find. And 
they are narrower than they were in the past.
    And so I would hope that that is something that we, as a 
country, could address at some point. Because we do have a mass 
of very dedicated, very intelligent young people who want to 
serve but do not necessarily think they have an opportunity to 
do so.
    Mrs. Davis. Yes. Thank you. I actually think we put down 
government all the time and that does not help them to aspire 
to that. Thank you.
    Dr. Inboden. If I--if I can echo Dr. Brands. Again, one of 
the great joys of my life is when I, you know, show up in the 
classroom and see how so many of our students are so eager for 
service, full stop. You know, for service for meaningful lives. 
You know, we are a wealthy enough country; they have now 
realized that it is not just about acquiring more and more 
stuff, but about doing something for your fellow human beings 
and especially for your country.
    And I would echo Dr. Brands' frustrations about some of the 
sclerosis in our civil service and how hard it can be to get 
into those roles for eager students.
    On the other hand, if I can be the optimist here, one 
positive aspect of the post-9/11 era has been the return of 
ROTC [Reserve Officers' Training Corps] and intelligence 
community recruitment at a lot of our elite universities. 
Which, you know, in the post-Vietnam era, they would--they had 
been shunned from campus for about three decades, including 
through, you know, the end of the Cold War and when we thought 
we would have been over that. But we finally seem to have.
    You know, one positive side effect of the dreadful tragedy 
of 9/11 has been a return to a lot of our elite universities 
recovering their own sense of patriotism, of citizenship, of 
welcoming our national security establishments' recruitment 
efforts on those campuses. Not at all saying that that is the 
only way for students to go serve. But, previously, it was hard 
for universities to be able to talk with sincerity about 
encouraging national service when you do not even allow ROTC, 
or the CIA [Central Intelligence Agency] or others to recruit 
on campus.
    Mrs. Davis. Okay, yes. Thank you. And just quickly, is 
there a better way that we should be organized when it comes to 
our national strategy? Obviously, that we make great mention of 
more inner just, you know, whole-of-government approaches. And, 
yet, when I think about our trade policies today, particularly, 
and some other policies, you do not see that they are 
integrated in such a way that we really recognize the 
implications of those.
    Have you thought about that? Would there be some other 
better coordinating way to deal with those policies?
    Dr. Inboden. Well, Mr. Chairman, maybe you need to bring us 
back next year for a whole other session on interagency reform, 
right? That will test it. But I will say, on trade policy, it 
is a good example, right? I mean, we are still a little 
confused. Is USTR [United States Trade Representative] in the 
lead? Is Treasury in the lead? Is Commerce in the lead? Is the 
Economic Bureau at State in the lead?
    And so when you have the, you know, multiple different 
authority centers, or a couple of new positions created at the 
White House, for example, it can be confusing within our 
government and certainly confusing for foreign counterparts as 
well.
    That said, it has almost become this, you know, stale line 
at, you know, DC cocktail parties about we need a Goldwater-
Nichols for the interagency. And, again, I am second to none in 
my admiration for Goldwater-Nichols, but I think that that is 
perhaps a little too trite of a rigid template to apply.
    And I would first focus on, sort of, better coordination 
within the system that we already have rather than trying to 
reinvent it too much. Because whatever would come next might be 
a little bit worse, if we take it too far.
    Dr. Brands. I would just say that the interagency process 
and interagency coordination are difficult by design, simply 
because they bring together so many different actors with 
diverse viewpoints within the U.S. Government.
    And so we could think about specific institutional or 
structural reforms that might help smooth the process. But I 
think that the big takeaway for me is that whatever structures 
or whatever process you have will only function if they are the 
subject of commitment to making the process work and commitment 
to having a normal structured process from the very top. And 
without that, whatever process you have is destined to fail.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here. And I am sorry for being a little 
late. I am on three different committees so you run around a 
lot. But I wanted to run over here and get a couple questions 
in.
    I wanted to ask you a little bit about your thoughts on the 
triad. We had some discussions from the ranking member. I 
always said if, you know, they become the majority that they 
like to go into a dyad or defund at least a portion of our 
triad. I think targeting ICBMs [intercontinental ballistic 
missiles], in particular. I just want your thoughts on the 
importance of the triad. Why should we care? Why should our 
constituents care? Thank you.
    Dr. Brands. So I think that even though we do not think 
about nuclear deterrence very much, nuclear deterrence is, 
perhaps, the most important thing that the Department of 
Defense does. In the sense that the nuclear danger is something 
that really is an existential threat to the United States. And 
so my topline point is just that it is worth taking this issue 
very seriously.
    With respect to the triad, in particular, I understand the 
urge to try to seek savings by looking at the nuclear 
enterprise. But I would just say, there are very good reasons 
why we have a triad in the first place. It provides redundancy. 
It presents, basically, insuperable targeting difficulties for 
any adversary that might try to mount a disarming first strike. 
And it gives us insurance against the prospect that a major 
power adversary might try to gain an advantage in the nuclear 
realm by building up rapidly.
    And when we look out at the world today and we see that the 
Chinese are modernizing their arsenal quite rapidly, the 
Russians have been modernizing their arsenal for about a dozen 
years now, at a time when the United States has not, I think 
the arguments for a triad now are as strong as they have ever 
been.
    Mr. Bacon. Thank--go ahead.
    Dr. Inboden. I would, again, echo everything Dr. Brands 
said. But, you know, two other dimensions I would add in 
addition is we also do need to think, even be more robust in 
supporting ballistic missile defense. I know that is not a part 
of the triad, but the defensive component there, going back to 
President Reagan's vision in 1983.
    Now, we are seeing it much more acutely with threats from 
North Korea, possibly Iran, depending on how that program 
continues to develop or not. Because we do not necessarily want 
to be in the position of the only option being an overwhelming 
retaliation, right? If there is a way we could deter, stop 
that.
    The second reason why I think that we need to continue to 
upgrade and maintain the triad is going back to the discussions 
about our allies. I worry about an eroding commitment among 
some of our allies to their own nuclear deterrent, especially 
the British.
    And with future political uncertainty in the U.K. and 
possibly a new government coming in that would--you know, has 
pledged to eliminate their nuclear arsenal. You know, all the 
more important that we are still maintaining and upgrading 
ours.
    Mr. Bacon. Well, thank you. I really appreciate your 
comments on that. I am a big advocate for our triad, and we 
need robust deterrence. And to go to a dyad, I think, would be 
threatening and add risk in our--in our world environment.
    Now, somewhere a little more in your wheelhouse, perhaps, 
is Chinese economic growth versus ours. And, right now, depends 
on what you are looking at. They are about 90 percent of our 
GDP, roughly. I don't know. Maybe you have better numbers. But 
if they are growing at 6 percent--and then like in January 
2017, we had a 1.2 percent GDP growth, very stagnant. Now we 
are at 4 percent.
    I worry about in a world if China surpasses us and grows at 
6 percent, versus 2 or 1, whatever it may be, what does our 
world look like? Their values versus our values. We respect 
individual freedoms, human rights. So economic power is, I 
think, very important if we want to preserve our values in the 
world and have a strong voice.
    But what insights can you add for China versus our economic 
growth and how has that changed in the last year?
    Dr. Brands. So I will just make two comments. One, I think 
that, you know, when you look at the GDP numbers in a vacuum, 
particularly if you are looking at the purchasing power parity 
numbers, they look pretty bad. And, in fact, the purchasing 
power parity, China has already surpassed us, according to most 
expectations.
    But if you take a closer look, I think the numbers look 
more favorable to us. So if you factor in per capita GDP, which 
is a critical measure of how much wealth a country can actually 
extract from the population to pursue geopolitical ends, our 
per capita GDP is about four times that of China. If you look 
at statistics like inclusive wealth, which tries to take into 
account the damage that China is doing to its environment and 
the long-term economic costs that that will take, things look a 
little bit better.
    But I would simply add that this issue of rising Chinese 
economic power drives home the absolute critical importance of 
maintaining and strengthening our alliance relationships. It is 
one thing if you are comparing U.S. versus China bilaterally in 
terms of military power or economic power or any other index of 
national power. It is an entirely different thing if it is 
China versus the U.S. and all of its allies in the Asia-
Pacific.
    These alliances give us enormous strategic, economic, and 
geopolitical advantages and we need to continue to prioritize 
them.
    Dr. Inboden. I will just--again, agreeing with everything 
Dr. Brands said, but adding a little bit there. You know, with 
the caveat that I am very concerned about the growing threat 
from China, I do think China will be our primary strategic 
competitor and adversary for the next, you know, 20 to 50 years 
probably.
    That said, we do not want to overdo it, particularly on 
concerns about the economic front. In addition to some of the 
different ways of interpreting the numbers he mentioned, they 
have massive problems, internal economic imbalances, massive 
internal problems with corruption.
    And Xi Jinping has been trying to consolidate his power 
based on this kind of implicit social compact the Communist 
Party has built with its people since 1979: If the people will 
relinquish their political and religious freedoms, we will 
deliver rising standards of living and economic growth.
    You know, as he is looking at some of the internal economic 
and corruption challenges they are having, you know, there 
could be large numbers of Chinese people starting to question 
that, especially as the Chinese surveillance state is becoming 
more and more pervasive.
    I, you know, was telling some fellow scholars the other day 
as we were talking about this that I think Xi Jinping, as much 
as he is wary of and somewhat afraid of the United States, he 
is most afraid of his own people. And that is where some of 
China's real internal vulnerabilities are. So we don't want to 
create this, you know, 10,000-foot-tall Chinese monolith 
either.
    Mr. Bacon. One last question, if I have time, Mr. Chairman. 
Good news, we are the largest energy producing nation again. 
Are we doing enough with our Eastern European allies to help 
them not become dependent on the Russia gas? I mean, it is an 
area that has been a concern of mine, when I travel to Poland, 
the Baltic States. I think we have had some successes with 
Lithuania on this. Even some of our own bases in Europe are 
using Russian gas that could just be turned off. It concerns 
me. Thank you.
    Dr. Inboden. I am concerned too. So, no. No, we are not 
doing enough. And, again, I mentioned earlier in the hearing, 
this historical precedent. This was an issue with our European 
allies trying to be dependent on the Soviet pipeline in the 
early 1980s. And we, you know, right then, saw that as a 
strategic vulnerability.
    For all the talk about the challenges America faces and a 
lot of the bad news in the world over the last 10 years, one of 
the underappreciated really good news stories has been the 
shale boom. Our tremendous resurgence as, you know, arguably, 
the swing energy produce--swing hydrocarbon producer on the 
globe.
    And yet we have not thus far been able to leverage that 
enough to help wean our Eastern European allies off of their 
reliance on Russian gas. We may not be able to entirely, but 
again, I think just more diversification there. Because Russia 
is, you know, able and willing to use that as a weapon as we 
have seen with Ukraine and elsewhere.
    Dr. Brands. I would agree with everything that Dr. Inboden 
said. I would just add, I think the one bit of good news is--my 
understanding of the statistics is that while our allies in 
Eastern Europe, and even countries like Germany, retain some 
dependence on Russian energy supplies, the percentage of their 
energy supplies that they get from Russia is actually less than 
it was, say at the beginning of the post-Cold War era.
    And so while it is discouraging to see things like Nord 
Stream 2 proceeding, I think we should keep in mind that over 
the long term, there has been some progress in addressing this 
issue.
    Mr. Bacon. Thank you. Mr. Chairman, I yield back.
    The Chairman. Thank you, both, again. As I said at the 
beginning, I think it is important for us to step back 
occasionally and take a larger, longer view of things. And you 
all have helped us do that today.
    So thank you again. The hearing stands adjourned.
    [Whereupon, at 11:29 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           September 26, 2018

=======================================================================



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 26, 2018

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 26, 2018

=======================================================================

      

                    QUESTIONS SUBMITTED BY MS. ROSEN

    Ms. Rosen. A company located in my district is the last remaining 
supplier of titanium sponge in the United States. Titanium sponge is an 
essential material in the production of strategic military assets such 
as military aircraft, space vehicles, satellites, naval vessels, and 
munitions. With the Asia-Pacific region expected to maintain its 
dominance over titanium sponge for the aerospace and defense markets, I 
am concerned by the national security implications if, for whatever 
reason, domestic suppliers cease to exist.
    a) If critical components of our national security apparatus are 
controlled by adversarial powers--such as China, Russia, Kazakhstan, 
and others--are we in effect ceding our military supply chain and 
national security to those in competition of longstanding international 
order? Is that not to the detriment of our efforts to head off China's 
attempts to become the world's leading military and economic power?
    b) Should the Defense Department have a plan in place to ensure a 
reliable domestic supply of titanium sponge like that produced in 
Henderson, Nevada? What are the national security implications if 
domestic suppliers of essential military materials are put out of 
business? What is being done to protect every link in our military 
supply chain?
    Dr. Inboden. A. I appreciate your strategic focus on vital raw 
materials in the supply chain of critical components for our defense 
industrial base and military arsenal, especially in the aviation realm. 
One area of concern in recent years has been the growing efforts by 
some adversarial nations to use natural resource supplies as tools in 
coercive statecraft for hostile purposes. Examples in this regard 
include Russia's suspension of natural gas supplies to Europe in 2009 
and to Ukraine in 2014, and China's limits on the export of rare earth 
minerals. As the United States enters what appears to be a new era of 
great power competition, our national security strategy needs to 
include ensuring reliable, consistent, and secure supplies of any and 
all natural resources and raw materials that our military and 
intelligence communities will need to maintain our technological 
advantage over any peer competitors and other hostile actors. This 
consideration should in particular inform our overall strategies 
towards China and Russia, especially given their willingness to 
leverage their natural resources for their own strategic advantage.
    While I do not possess expertise on aviation technology, munitions 
manufacturing, or titanium sponge per se, I do appreciate the 
importance of titanium sponge for our overall defense posture and many 
of our military and intelligence assets. Nevada's essential role in the 
production of titanium sponge is especially important. Accordingly, I 
believe it was a positive step when President Trump issued Executive 
Order 13817 in late December 2017, ``A Federal Strategy to Ensure 
Secure and Reliable Supplies of Critical Minerals.'' This was issued in 
response to a report released earlier in the month by the United States 
Geological Survey which found that our national security and economic 
prosperity was dependent on the import of certain minerals (82 FR 
60835, December 26, 2017). In February 2018, the U.S. Department of the 
Interior compiled a list of mineral commodities that were deemed 
critical as defined by EO 13817, and this list included titanium among 
the 35 critical minerals. This is an important measure in guiding the 
Defense Department's efforts to ensure reliable supplies of critical 
raw materials and protecting every stage of this important supply 
chain.
    Ms. Rosen. A company located in my district is the last remaining 
supplier of titanium sponge in the United States. Titanium sponge is an 
essential material in the production of strategic military assets such 
as military aircraft, space vehicles, satellites, naval vessels, and 
munitions. With the Asia-Pacific region expected to maintain its 
dominance over titanium sponge for the aerospace and defense markets, I 
am concerned by the national security implications if, for whatever 
reason, domestic suppliers cease to exist.
    a) If critical components of our national security apparatus are 
controlled by adversarial powers--such as China, Russia, Kazakhstan, 
and others--are we in effect ceding our military supply chain and 
national security to those in competition of longstanding international 
order? Is that not to the detriment of our efforts to head off China's 
attempts to become the world's leading military and economic power?
    b) Should the Defense Department have a plan in place to ensure a 
reliable domestic supply of titanium sponge like that produced in 
Henderson, Nevada? What are the national security implications if 
domestic suppliers of essential military materials are put out of 
business? What is being done to protect every link in our military 
supply chain?
    Dr. Brands. a) Although the economic benefits of globalization are 
indisputable, it is true that the globalization of supply chains has 
created military vulnerabilities for the United States by leading to 
situations in which we source components of critical military 
capabilities from companies controlled by or based in countries that 
are strategic competitors. Each of these vulnerabilities will need to 
be assessed and mitigated individually, and it would be a mistake to 
respond to select vulnerabilities by imposing wholesale barriers to 
trade and financial flows. But the Department of Defense and the nation 
more broadly should consider whether there are areas in which selective 
economic de-integration with geopolitical competitors is necessary to 
safeguard U.S. strategic autonomy and key military capabilities.
    b) In general, if domestic suppliers of essential military 
materials are put out of business, the United States could find itself 
in a situation in which its ability to field critical military 
capabilities is compromised. While I cannot speak to the issue of 
titanium sponges per se, I do believe that DOD needs a plan to ensure 
that critical components can be sourced in the quantities needed for 
peacetime deterrence and competition as well as for conflict with a 
major-power competitor, should that occur.

                                  [all]
</pre></body></html>
